OFFICE OF INSPECTOR GENERAL


AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
IMPLEMENTATION OF
SELECTED KEY PROJECT
CONTROLS FOR THE MCC
INTEGRATED DATA ANALYSIS
SYSTEM

AUDIT REPORT NO. M-000-11-002-P
January 31, 2011



WASHINGTON, D.C.
           
          Office of Inspector General 
            for the Millennium Challenge Corporation 


January 31, 2011

The Honorable Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005


Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Audit of the Millennium
Challenge Corporation’s Implementation of Selected Key Project Controls for the MCC
Integrated Data Analysis System. In finalizing the report, we considered your written comments
on our draft report and included those comments in their entirety in Appendix II of this report.

The report contains nine recommendations to strengthen the Millennium Challenge
Corporation’s project management capabilities for information technology projects. We have
reviewed your comments and determined that management decisions have been reached on all
nine recommendations in the audit report.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
www.usaid.govoig
CONTENTS
Summary of Results ....................................................................................................... 1
Audit Finding ................................................................................................................... 3
          Key Project Controls Not Incorporated Into MIDAS Project .................................. 3
Evaluation of Management Comments ....................................................................... 12
Appendix I – Scope and Methodology ........................................................................ 13
Appendix II – Management Comments ....................................................................... 14
Appendix III – Additional Background Information ................................................... 17
SUMMARY OF RESULTS
On September 27, 2007, the Millennium Challenge Corporation (MCC) awarded a
contract to develop the Business Intelligence and Data Storage system (page 17). The
system would enable MCC to meet its strategic goals by enabling it to link financial
management and performance data, which would improve MCC’s programmatic
effectiveness, operational efficiency, and ability to show results. By March 2008, MCC
realized that the system did not function as intended and halted the project. In
September 2008, MCC modified the contract to refine the requirements. In addition,
MCC renamed the project MCC Integrated Data Analysis System (MIDAS). In March
2009, MCC began using MIDAS in some countries. To date, MCC has spent more than
$6.9 million 1 against the contract.     Appendix III provides additional background
information.

The objective of the audit was to determine if MCC implemented selected key project
controls to meet cost, schedule, and performance goals for the MIDAS project. For this
audit, selected key project controls were (1) risk management, (2) earned value
management, and (3) requirements management.

MCC did not implement three key project controls to meet cost, schedule, and
performance goals (page 3). Specifically, MCC did not:

      •   Manage MIDAS project risks (pages 3–4).
      •   Use earned value management, which is a project management control tool
          allowing visibility into technical, cost, and schedule planning; performance; and
          progress for major information technology (IT) projects, as required (page 4).
      •   Effectively manage the MIDAS requirements, which specify system capabilities
          as well as its physical and performance limitations (pages 4–5).

The aforementioned problems occurred because MCC did not (1) consistently involve
qualified staff and maintain appropriate staffing levels to manage the project (pages 5–6);
(2) develop comprehensive policies and procedures for systems and service acquisition
(pages 6–7); and (3) establish what project documentation should be prepared, updated,
and maintained for IT projects (pages 7–8). As a result, MCC spent more than $6.9 million
for a system that only partially met its needs (page 8).

The report recommends that MCC:

1. Develop a detailed, written plan to establish strong project management capabilities
   for IT projects (page 9).

2. Develop written earned value management policies and procedures for IT projects,
   as required (page 10).

3. Develop written policies and procedures to plan for, mitigate, monitor, and report on
   risks to IT projects (page 10).


1
    Unaudited.


                                                                                         1
4. Update the Contracts Operating Manual to include procedures for including risk
   management and earned value management in contracting actions, when required
   (page 10).

5. Develop written policies and procedures to obtain written approval for relying on a
   contractor’s systems development life cycle methodology (page 10).

6. Develop written policies and procedures to address key decision points for IT
   projects (page 10).

7. Establish in writing what documentation must be prepared, updated, and maintained
   for IT projects (page 10).

8. Implement risk management, earned value management, and requirements
   management for the MIDAS project before proceeding to the development phase to
   build additional functionality for the system (pages 10–11).

9. Review MCC’s IT project management capabilities and determine whether its
   weaknesses should be reported, tracked, and monitored as a material weakness
   pursuant to the Federal Managers Financial Integrity Act of 1982 (page 11).

The detailed findings are discussed in the next section of the report. Appendix I
describes the audit’s scope and methodology. MCC provided comments on the draft
report, which are included in their entirety in Appendix II. Management decisions have
been reached on all nine recommendations (page 12).




                                                                                    2
AUDIT FINDING
Key Project Controls
Not Incorporated Into the
MIDAS Project
MCC did not implement risk management, earned value management (EVM), and
requirements management for MIDAS—three key project controls to meet cost,
schedule, and performance goals.

Risk Management Not Performed – Part 39 of the Federal Acquisition Regulation
(FAR) requires risk management be performed for IT contracts. Specifically:

   •   Section 102(a) requires an agency to analyze risks, benefits, and costs before
       entering into IT contracts. It further states that the contracting and program office
       officials are both responsible for assessing, monitoring, and controlling risk when
       selecting projects for investment and during program implementation.
   •   Section 102(c) requires an agency to apply the appropriate techniques, such as
       prudent project management, to manage and mitigate risk during the acquisition
       of IT.

Furthermore, a best practice for managing an IT project is to maintain a risk-monitoring
tool. Specifically, the risk-monitoring tool should:

   •   Identify project risks, such as schedule risk, cost risk, and program management
       risk.
   •   Apply a methodology for prioritizing risks based on probability of occurrence and
       impact.
   •   Include plans, such as a risk mitigation plan, to respond to risks.
   •   Assign an individual to be responsible for each of the risks.

MCC prepared a risk management plan dated September 2008 that included most of the
information needed for managing risks, such as the methodology for performing risk
management for the project and risk categories. In addition, the risk management plan
included an initial risk-monitoring tool for the project, which identified and evaluated risks
and included plans to respond to risks.

Although a prior project manager was aware that the plan and risk-monitoring tool
existed, no evidence was provided that the plan was ever used. Moreover, the current
project team was not aware of the plan, and therefore the plan was not updated and
used to actively manage risks. For example, MCC did not identify and manage the
following risks:

   •   Use of Rapid Application Development – The MIDAS contractor used rapid
       application development by prototyping, which is a system development life cycle
       methodology. (A system development life cycle methodology is the process of
       developing information systems through investigation, analysis, design,
       implementation, and maintenance.) However, MCC officials acknowledged that


                                                                                            3
        rapid application development was not an appropriate methodology to develop
        MIDAS, as it is intended for small, low-risk projects with well-understood
        requirements.
    •   Use of Time-and-Materials Contract – MCC used a time-and-materials contract
        for a substantial portion of the original MIDAS contact. However, time-and-
        materials contracts do not encourage effective cost control and require almost
        constant government surveillance. MCC officials acknowledged that there were
        concerns with this contract type and later modified it.
    •   Immaturity of MCC’s IT Processes – The maturity of an organization’s IT
        processes is measured by how well those processes are developed, including
        capability and control. MCC officials acknowledged that MCC was not mature
        enough as an organization to handle a large, complex project such as MIDAS.

EVM Not Used – EVM is a project management control tool that allows visibility into
technical, cost, and schedule planning; performance; and progress for major IT projects.
EVM not only encourages contractors to use effective internal cost and schedule
management control systems but also provides the manager with timely and consistent
cost, schedule, and progress data.

The Office of Management and Budget (OMB) has issued guidance to (1) assist in
monitoring and improving project planning and execution and (2) fully implement EVM
systems for IT projects. In an August 2005 memorandum, 2 OMB requires agencies to:

    •   Include EVM requirements in contracts.
    •   Perform reviews to ensure that EVM systems meet established requirements.
    •   Ensure that project performance goals are appropriate.

In addition, OMB requires EVM systems for developmental portions of investments and
further requires EVM systems to be applied regardless of contract type (OMB Circular
No. A–11, Part 7, “Planning, Budgeting, Acquisition, And Management of Capital
Assets”).

Finally, the FAR identifies contracting requirements for EVM systems for major IT
investments. The FAR states that, at a minimum, contracting officers must require
contractors to submit EVM system monthly reports for those contracts for which an EVM
system applies (FAR Subpart 34.2, “Earned Value Management System”).

However, MCC did not incorporate EVM into the MIDAS project. Specifically, MCC did
not (1) have an EVM system to use for the project or (2) incorporate EVM into MIDAS
contracting actions. Although the contractor may have used aspects of EVM for some
project tasks, MCC did not provide evidence that MCC used EVM as a project
management tool.

Ineffective Management of Requirements – Best practices indicate that effective
requirements management plays a vital role in producing a successful project.
Requirements management includes:



2
 OMB M-05-23, Improving Information Technology Project Planning and Execution, August 4,
2005.


                                                                                      4
    •   Conducting sessions with key stakeholders to determine the initial requirements.
    •   Revising and organizing requirements and negotiating priorities.
    •   Having the requirements team detect areas that require more detail.
    •   Ensuring that requirements documentation is clear and concise.
    •   Evaluating requirements documentation to determine whether it satisfies the
        business needs and is complete enough for design and construction to begin.

The two major types of requirements are functional and nonfunctional. Functional
requirements specify capabilities that the system will be able to perform in terms of
behaviors and operations. Nonfunctional requirements specify the physical and
performance limitations of the system, and serve as constraints on functional
requirements.

MCC did not effectively manage the requirements for MIDAS. At the time MCC awarded
the original contract, MCC did not develop detailed functional requirements. However,
as part of a September 2008 contract modification, MCC prepared reporting and data
requirements. Yet, requirements for compact development and budget formulation were
not developed, and therefore those functionalities were not included in the system as
MCC planned in MCC’s OMB Exhibit 300. In addition, although the original contract
mentioned some high-level nonfunctional requirements, MCC did not prepare detailed
requirements for MIDAS. According to an MCC official, MCC initially planned to
outsource the system, and nonfunctional requirements would have been the
responsibility of the contractor. However, at some point, MCC decided to host the
system internally, but did not prepare nonfunctional requirements.

Moreover, a requirements traceability matrix was not maintained to ensure that all
requirements, including changes, were documented and incorporated into MIDAS.

Reasons Key Project Controls Were Not Implemented – The aforementioned
problems occurred because MCC did not establish a disciplined approach to manage IT
projects. Specifically, as discussed below, MCC did not:

    •   Consistently involve qualified staff and maintain appropriate staffing levels to
        manage the project.
    •   Develop comprehensive policies and procedures for systems and service
        acquisition.
    •   Establish what project documentation should be prepared, updated, and
        maintained for IT projects.

        Qualified Staff and Appropriate Staffing Levels Not Consistently Involved
With Managing MIDAS Project – OMB has recognized that qualified IT project
managers are the first line of defense against cost overruns, schedule slippages, and
poor performance. 3 In an April 2007 memorandum, OMB requires that project
managers assigned to major acquisitions be acquisition certified. It further requires that
project managers assigned to IT investments meet the technical requirements of the
Federal IT Project Manager Guidance Matrix (OMB Memorandum, The Federal


3
 OMB Memorandum M-04-19, Information Technology (IT) Project Manager (PM) Qualification
Guidance (July 24, 2004).


                                                                                        5
Acquisition Certification for Program and Project Managers, April 25, 2007). That matrix
establishes minimum competencies based on project complexity and risk.

However, MCC did not have people with the right skills managing the MIDAS project.
Although MCC began the MIDAS project with certified project managers, they were
subsequently reassigned, and for almost a year and a half MCC did not have a certified
project manager responsible for managing the project. In addition, neither MCC’s Chief
Information Officer (CIO) nor any other staff with an IT background was involved with the
project for approximately 2 years. Because MCC’s CIO is not positioned properly within
MCC’s organizational structure, he (1) does not have the authority to effectively
implement controls over MCC’s IT projects and (2) can be overridden by upper
management since he is not a senior official. In a July 2010 audit report, OIG
recommended that MCC’s Chief Executive Officer realign the CIO position to report
directly to the Chief Executive Officer, as required. 4 However, MCC did not agree to
implement that recommendation. 5

Equally important to having people with the right skills is assigning an appropriately
sized project management team. Best practices show that, for smaller projects,
responsibility can be assigned solely to a project manager, but for larger projects,
responsibility should be shared by a project management team. The contractor staffing
level increased from 7 to more than 20, at which point MCC officials admitted that it
became virtually impossible for the project manager to provide adequate project
oversight. Moreover, the project manager had difficultly determining whether the
contractor’s billings were correct.

       Comprehensive Policies and Procedures for System and Services
Acquisition Needed – The National Institute of Standards and Technology requires
organizations to develop, disseminate, and periodically review and update the following
formal documents:

    •   System and services acquisition policy that (among other things) addresses
        purpose, scope, roles, responsibilities, management commitment, coordination
        among organizational entities, and compliance.
    •   Procedures to implement the system and services acquisition policy and
        associated system and services acquisition controls (Special Publication 800-53,
        Revision 3, Recommended Security Controls for Federal Information Systems
        and Organizations, August 2009).

In addition, recognizing the value of good project management, OMB required agencies
to prepare EVM policies and procedures by December 31, 2005 (OMB M-05-23,
Improving Information Technology Project Planning and Execution, August 4, 2005).

MCC has prepared some policies and procedures that address system and service
acquisition, particularly in its policies for information systems security 6 and Contracts

4
   OIG Audit Report No. M-000-10-003-P, Audit of the Millennium Challenge Corporation’s
Implementation of Key Components of a Privacy Program for Its Information Technology Systems
(July 9, 2010).
5
  The OIG takes the position that no management decision was reached on the CIO realignment.
MCC management disagrees.
6
  MCC’s Information Systems Security Policy Millennium Challenge Corporation (May 4, 2010).


                                                                                          6
Operating Manual. 7 However, MCC did not develop comprehensive policies and
procedures for system and services acquisition, including EVM and risk management,
which are imperative for the success of IT projects. Such policies and procedures
should address in-house systems development projects as well as acquisitions from
external sources. Further, MCC needs policies and procedures for relying on a
contractor’s EVM system, which include:

    •   Performing surveillance and compliance of reviews of the EVM system to
        demonstrate that the EVM system meets and continues to meet standards.
    •   Establishing a performance baseline for the project and performing an integrated
        baseline review. The review will provide a mutual understanding of risks inherent
        in contractors' performance plans and underlying management control systems.

In addition, MCC’s policies and procedures need to address the use of an appropriate
systems development life cycle methodology. An August 2010 OIG contractor audit
report 8 recommended that MCC document a systems development life cycle
methodology. However, MCC also did not develop policies and procedures to ensure
that an appropriate methodology is applied when MCC relies on a contractor. MCC
officials agreed that the CIO should approve of a contractor’s proposed methodology.

Finally, MCC did not develop policies and procedures to identify the required inputs or
outputs (e.g., project risk reports and EVM reports) to move to the next phase of the
project. Such policies and procedures should also address which senior managers are
responsible for making such decisions and at what point those decisions should be
made.

       Required Project Documentation Not Established – MCC did not establish
what documentation should be prepared, updated, and maintained for IT projects.
MCC’s application of the documentation may vary by project depending on
predetermined criteria, such as the importance of the system to the mission costs or
complexity of the system, or visibility of the project.

For example, MCC did not consistently prepare an OMB Exhibit 300. OMB’s policy for
planning, budgeting, acquisition, and management of major IT investments requires an
Exhibit 300.    It is used to manage the investment phase of the performance
improvement life cycle, which provides the foundation for sound IT management
practices. OMB’s guidance for Exhibit 300s specifically calls for a detailed risk
management plan as well as the use of EVM for IT projects. Although MCC prepared an
Exhibit 300 in 2008 for MIDAS, it did not prepare an Exhibit 300 in 2007 for the initial
investment or in 2009 for the continuation of the project.

Also, MCC did not prepare a project charter for MIDAS. The project sponsor formally
authorizes the project by issuing a project charter that (1) establishes the requirements
to satisfy needs, wants, and expectations and (2) assigns a project manager and
authority level. 9 Because MCC did not prepare a project charter, the project suffered
from confusion regarding requirements as well as the responsibilities of the project

7
  MCC’s Contracts Operating Manual, Chapter 7, “Acquisition Planning” (April 2008).
8
  Report No. M-000-10-004-P, Audit of the Millennium Challenge Corporation’s Compliance with
the Federal Information Security Management Act of 2002 – Fiscal Year 2010 (August 31, 2010).
9
  Alternatively, a project charter may refer to other documents that include these items.


                                                                                           7
manager. MCC officials explained that a senior manager was too involved with the
project and held meetings with and directed the MIDAS contractor without the
knowledge and involvement of the project manager at that time. Those meetings
resulted in constant changes in system requirements with little documentation and a
drastic increase in contractor staff. A project charter would have helped MCC avoid this
confusion.

In addition, MCC did not establish what templates, including the required frequency,
should be used for reporting to senior management on the project’s status, risks, and
progress toward meeting its goals. Such reports could have provided information
needed to make informed decisions regarding whether to continue spending MCC’s
resources on the MIDAS project.

Impact of Not Implementing Key Project Controls – As a result of not using EVM, risk
management, and requirements management, MCC spent more than $6.9 million 10 —
$0.2 million more than planned in the OMB Exhibit 300—for a system that only partially
met its needs. Further, MCC did not meet its original, overly ambitious plan to have the
system fully tested and operational by March 2008.

If MCC had managed project risks, some of the problems that have had a serious impact
on its ability to meet project cost, schedule, and performance goals could have been
mitigated or avoided. For example, MCC wanted to allow Millennium Challenge Account
staff access to MIDAS via MCC’s network. However, that access would have caused a
security threat. Therefore, MCC had to redesign the system’s architecture, which
caused delays in project implementation. If MCC had used EVM, it could have made
informed decisions regarding whether to continue investing resources into the MIDAS
project. If MCC had managed requirements properly, it could have had better assurance
of meeting business needs.

In addition, according to MCC management, MCC is scheduled to close out eight of its
compacts over the next year. However, without MIDAS, MCC may have difficulty tying
the results of those compacts to the money spent.

In an October 2010 assessment of MIDAS, 11 an MCC contractor determined that the
MIDAS data collection process was very manual and labor intensive, and that users
spent more time entering and validating data than performing data analyses. Further,
reporting functions were limited, so users were unable to perform the data analyses
required to perform their jobs. Therefore, many end users continued to use their own
manual processes to report on data. The assessment provided six options for MCC to
consider in moving forward with MIDAS.

Conclusion – As MCC considers its options for MIDAS, it is important to have a
disciplined project management process in place to meet cost, schedule, and performance
goals. An August 2007 MCC plan 12 recognized that a “project management structure and
discipline does not exist within MCC,” as MCC was only minimally successful in its
previous attempt to implement a project management initiative. It further recognized that
large initiatives “will require a robust project management environment to successfully

10
   Unaudited.
11
   MCC, MIDAS Independent Verification & Validation Assessment Report (October 12, 2010).
12
   MCC, Enterprise Architecture IT Transition Plan Version 1 (August 2007).


                                                                                            8
manage the project portfolio through completion.” Therefore, the report recommended
that MCC reintroduce the project management program with the structure, discipline,
training, and executive sponsorship to ensure success. However, according to MCC
officials, that recommendation was not implemented because MCC executives did not
believe it was necessary. Nonetheless, because MCC has already exceeded the amount
it planned to spend on a system that only partially met its needs, it is imperative that
MCC implement a rigorous project management process before making new IT
investments.

To address the extensive weaknesses in MCC’s IT project management capabilities,
MCC needs to take prompt corrective actions to address the recommendations in this
audit report. Moreover, MCC needs to determine whether the IT project management
capabilities should be considered a material weakness, pursuant to the Federal
Managers’ Financial Integrity Act of 1982. Considering the program a material
weakness will draw attention to the program, as progress in correcting the weaknesses
will be tracked and reported to OMB and Congress.

Note that in response to a prior recommendation, 13 MCC added a dotted line from its
CIO to the Chief Executive Officer in its organizational chart of the senior management
team. However, OIG does not believe that action is responsive to the intent of the
recommendation to have the CIO report directly to the Chief Executive Officer. For
example, the external website does not list MCC’s CIO as a member of its senior staff.
Moreover, OMB requires the CIO to report directly to the agency head:

     While the organizational placement of the CIO is to be determined by the agency
     head, the person selected should report to the agency head directly, and not
     through another official. The CIO must actively participate, with the agency head
     and other senior agency officials, in planning and budgeting deliberations,
     support of work process redesign in areas being considered for IT investment,
     and the development of information technology program performance measures
     (OMB M-96-20, Implementation of the Information Technology Management
     Reform Act of 1996, April 4, 1996).

The OIG is not making a recommendation in this report to address the fact that the CIO
is not reporting directly to the Chief Executive Officer. This recommendation remains
open from the prior audit work. Recommendations 1 through 7 are directed to MCC’s
Chief Executive Officer because the current placement of MCC’s CIO within the
organizational structure results in the CIO not having the authority to implement the
recommendations.

     Recommendation 1.            We recommend that the Millennium Challenge
     Corporation’s Chief Executive Officer develop a detailed, written plan to establish
     strong project management capabilities for information technology projects, with
     sufficient responsibility, authority, and resources to apply disciplined practices.
     The plan must include assigning a certified project manager to information
     technology projects with the required minimum competencies based on project
     risk and complexity.

13
   Recommendation 1 in OIG Audit Report No. M-000-10-003-P, Audit of the Millennium
Challenge Corporation’s Implementation of Key Components of a Privacy Program for Its
Information Technology Systems (July 9, 2010).


                                                                                           9
Recommendation 2.          We recommend that the Millennium Challenge
Corporation’s Chief Executive Officer develop written earned value management
policies and procedures for information technology projects, as required by Office
of Management and Budget memorandum M-05-23. At a minimum, this must
include:

   •   Performing surveillance reviews of the earned value management
       system.
   •   Performing periodic compliance reviews of the earned value management
       system.
   •   Establishing a performance baseline.
   •   Conducting an integrated baseline review.

Recommendation 3.            We recommend that the Millennium Challenge
Corporation’s Chief Executive Officer develop written policies and procedures to
plan for, mitigate, monitor, and report on risks to information technology projects.

Recommendation 4.         We recommend that the Millennium Challenge
Corporation’s Director of Contracts and Grants Management, in collaboration
with the Chief Executive Officer, update the Contracts Operating Manual to
include procedures for including risk management and earned value
management in contracting actions, when required.

Recommendation 5.          We recommend that the Millennium Challenge
Corporation’s Chief Executive Officer develop written policies and procedures to
obtain written approval for relying on a contractor’s systems development life
cycle methodology.

Recommendation 6.          We recommend that the Millennium Challenge
Corporation’s Chief Executive Officer develop written policies and procedures to
address key decision points for information technology projects, including who is
responsible for making those decisions and what information should be used as
the basis for making those decisions.

Recommendation 7.        We recommend that the Millennium Challenge
Corporation’s Chief Executive Officer, establish in writing what documentation
must be prepared, updated, and maintained for information technology projects
based on size and complexity of the project. At a minimum, this must include:

   •   Office of Management and Budget Exhibit 300s
   •   Project charters
   •   Earned value management reports
   •   Risk management plans and reports
   •   Requirements documents
   •   Reports to senior management

Recommendation 8.         We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations implement the following




                                                                                       10
controls for the MCC Integrated Data Analysis System project before proceeding
to the development phase to build additional functionality for the MCC Integrated
Data Analysis System:

   •   Risk management
   •   Earned value management
   •   Requirements management

Recommendation 9.         We recommend that the Millennium Challenge
Corporation’s Senior Assessment Board review the Corporation’s information
technology project management capabilities and prepare a written determination
regarding whether its weaknesses should be reported, tracked, and monitored as
a material weakness pursuant to the Federal Managers’ Financial Integrity Act of
1982.




                                                                                    11
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments to the draft
report that are included in their entirety in Appendix II. MCC agreed to take corrective
action on all nine recommendations in the draft report.

For Recommendation 1, MCC agreed to develop a plan to establish project
management capabilities for IT projects by March 25, 2011. OIG considers that a
management decision has been reached.

For Recommendation 2, MCC agreed to develop a compliant earned value management
policy by May 20, 2011. OIG considers that a management decision has been reached.

For Recommendation 3, MCC agreed to develop an IT project risk management policy
by April 8, 2011. OIG considers that a management decision has been reached.

For Recommendation 4, MCC agreed to update the Contracts Operating Manual to
include procedures for incorporating risk management and earned value management in
contracting actions, when required. MCC plans to take final corrective action by March
31, 2011. OIG considers that a management decision has been reached.

For Recommendation 5, MCC agreed to develop a corporate systems development life
cycle (SDLC) policy by April 22, 2011. OIG considers that a management decision has
been reached.

For Recommendation 6, MCC agreed to develop SDLC procedures to address key
decision points for IT projects by April 22, 2011. OIG considers that a management
decision has been reached.

For Recommendation 7, MCC agreed to develop SDLC procedures to address what
documentation must be prepared, updated, and maintained for IT projects by April 22,
2011. OIG considers that a management decision has been reached.

For Recommendation 8, MCC agreed to implement (1) risk management, (2) earned
value management, and (3) requirements management for the MIDAS project before
proceeding to the develop additional functionality for MIDAS. MCC plans to take final
corrective action by June 3, 2011. OIG considers that a management decision has been
reached.

For Recommendation 9, MCC agreed to have its Senior Assessment Board make a
determination of whether IT project management capabilities should be reported,
tracked, and monitored as a material weakness pursuant to the Federal Managers’
Financial Integrity Act of 1982. MCC plans to take final corrective action by May 20,
2011. OIG considers that a management decision has been reached.




                                                                                     12
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG) conducted this performance audit of the
Millennium Challenge Corporation’s (MCC) Integrated Data Analysis System (MIDAS) in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. To date, MCC has obligated
almost $7.4 million against the contract and paid the contractor more than $6.9 million.
However, we did not audit these amounts, but instead focused on key project controls
for the MIDAS project.

We conducted our audit at MCC headquarters in Washington, DC, from August 12 to
October 27, 2010. To answer the audit objective, we interviewed MCC staff and
reviewed documentation related to MIDAS [formerly the Business Intelligence and Data
Storage System (BIDS)]. Such documentation included the BIDS and MIDAS technical
proposals, contract modifications, obligations spreadsheets, Office of Management and
Budget (OMB) Exhibit 300 for MIDAS, a list of project management-certified employees,
contracting officer’s technical representative designation, project monitor designation,
and requirement specifications. We also observed MIDAS. We reviewed laws,
regulations, OMB circulars and memorandums, and other guidance related to the audit
objective. The objective of this audit was to determine if MCC implemented selected key
project controls to meet MIDAS projects cost, schedule, and performance goals. Thus,
we focused on the following three significant controls: (1) risk management, (2) earned
value management, and (3) requirements management.

Methodology
To answer the audit objective, we reviewed key MIDAS project controls, which included
(1) the risk management plan, (2) earned value management system, and
(3) requirements management.

With regard to risk management, we used best practices to assess whether, for the
MIDAS project, MCC performed (1) management planning, (2) monitoring, and (3)
reporting. With regard to earned value management, we used OMB M-05-23, Improving
Information Technology (IT) Project Planning and Execution (August 4, 2005) to assess
whether, for the MIDAS project, MCC (1) performed earned value management systems
compliance and surveillance reviews, (2) incorporated earned value management
system into contracts, and (3) conducted an integrated baseline review. We also
assessed MCC senior management’s use of earned value management system for
MIDAS in accordance with OMB A-11, Part 7, Planning, Budgeting, Acquisition, and
Management of Capital Assets. With regard to requirements management, we
considered the business needs identified in the MIDAS contract and OMB Exhibit 300 in
assessing the MIDAS functional and nonfunctional requirements documents. However,
we did not perform requirements gathering and analyses.



                                                                                     13
                                                                              APPENDIX II



   MANAGEMENT COMMENTS




January 14, 2011

MEMORANDUM TO: Alvin A. Brown
               Assistant Inspector General for the Millennium
               Challenge Corporation

FROM:                    Dennis Lauer /s/
                         Chief Information Officer
                         Millennium Challenge Corporation

SUBJECT:                 MCC Comments on the Audit of the Millennium Challenge
                         Corporation’s Implementation of Selected Key Project
                         Controls for the MCC Integrated Data Analysis System.

The Millennium Challenge Corporation (MCC) appreciates the opportunity to comment on
the audit of the MCC’s Implementation of Selected Key Project Controls for the MCC
Integrated Data Analysis System. We acknowledge and consider your role vital in helping to
strengthen MCC’s project management capabilities for information technology projects.

Our Management Response to your recommendations follows.

Recommendation No. 1: Develop a detailed, written plan to establish strong project
management capabilities for IT projects.

Management Response: MCC will develop a plan to establish project management
capabilities for IT projects by March 25, 2011.

Recommendation No. 2: Develop written earned value management policies and procedures
for IT projects, as required.

Management Response: MCC will develop an Earned Value Management policy that is
ANSI-EIA 748A compliant by May 20, 2011.


                                                                                       14
Recommendation No. 3: Develop written policies and procedures to plan for, mitigate,
monitor, and report on risks to IT projects.

Management Response: MCC will develop an IT Project Risk Management policy by April
8, 2011.

Recommendation No. 4: Update the Contracts Operating Manual to include procedures for
including risk management and earned value management in contracting actions, when
required.

Management Response: MCC will update the Contracts Operating Manual to include
procedures for including risk management and earned value management in contracting
actions, when required, by March 31 2011.

Recommendation No. 5: Develop written policies and procedures to obtain written approval
for relying on a contractor’s systems development life cycle methodology.

Management Response: MCC will develop an MCC corporate SDLC policy by April 22,
2011.

Recommendation No. 6: Develop written policies and procedures to address key decision
points for IT projects.

Management Response: MCC will develop SDLC procedures to address key decision points
for IT projects by April 22, 2011.

Recommendation No. 7: Establish in writing what documentation must be prepared,
updated, and maintained for IT projects.

Management Response: MCC will develop SDLC procedures to address what
documentation must be prepared, updated and maintained for IT projects by April 22, 2011.

Recommendation No. 8: Implement risk management, earned value management, and
requirements management for the MIDAS project before proceeding to the development
phase to build additional functionality for the system.

Management Response: MCC will implement risk management, earned value management
and requirements management for the MIDAS project before proceeding to the development
phase to build additional functionality for the system by June 3, 2011. This is in accordance
with Recommendations 1, 2, 3, and 5.

Recommendation No. 9: Review MCC’s IT project management capabilities and determine
whether its weaknesses should be reported, tracked, and monitored as a material weakness
pursuant to the Federal Managers Financial Integrity Act of 1982.




                                                                                           15
Management Response: MCC will refer this to the Senior Assessment Board (SAB) for a
determination of whether IT project management capabilities should be reported, tracked and
monitored as a material weakness pursuant to the Federal Managers Financial Integrity Act
of 1982, by May 20, 2011.




                                                                                        16
                                                                          APPENDIX III



ADDITIONAL BACKGROUND
INFORMATION
The Millennium Challenge Corporation (MCC) fulfills its mission to reduce poverty and
promote sustainable economic growth by awarding compacts to eligible countries, and in
doing so it operates in a challenging business environment.                Therefore, on
September 27, 2007, MCC awarded a contract to develop the Business Intelligence and
Data Storage (BIDS) system in an effort to effectively carry out its work in this
environment. BIDS aligns with the Millennium Challenge Corporation Strategic Plan
2006–2011, Strategic Goal #4: “Build MCC’s capabilities to achieve its primary strategic
goals.” It further supports the three primary strategic goals: (1) to develop its human
resources and financial and administrative capacity; (2) to articulate clear processes,
policies, and quality standards; and (3) to build strong support systems to enable MCC
to achieve its mission. BIDS was supposed to enable MCC to meet these four strategic
goals by providing the capability to link financial management and performance data,
and in turn to improve MCC’s programmatic effectiveness, operational efficiency, and
ability to show results. The contractor was required to deliver the system to meet MCC’s
needs no later than March 27, 2008.

By March 2008, MCC realized that BIDS did not function as intended. At that time, MCC
management made a decision to halt the project. In September 2008, MCC modified
the contract to refine the requirements for three specific aspects: (1) data collection,
(2) workflow and document management, and (3) reporting. In addition, MCC changed
the named of BIDS to the MCC Integrated Data Analysis System (MIDAS). In
March 2009, MCC began using MIDAS in some countries.

To date, MCC has obligated almost $7.4 million against the contract and paid the
contractor more than $6.9 million. 14




14
     Unaudited.


                                                                                     17
U.S. Agency for International Development
        Office of Inspector General
For the Millennium Challenge Corporation
             1401 H Street, NW
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
